<html>
<title> - THE INVASIVE SPECIES THREAT: PROTECTING WILDLIFE, PUBLIC HEALTH, AND INFRASTRUCTURE</title>
<body><pre>[Senate Hearing 116-4]
[From the U.S. Government Publishing Office]


                                                          S. Hrg. 116-4

                THE INVASIVE SPECIES THREAT: PROTECTING
              WILDLIFE, PUBLIC HEALTH, AND INFRASTRUCTURE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 13, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
               
               
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-945PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3d4c3dcf3d0c6c0c7dbd6dfc39dd0dcde9d">[email&#160;protected]</a>                              
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 13, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Franklin, Slade, Weed and Pest State Coordinator, Wyoming 
  Department of Agriculture......................................     6
    Prepared statement...........................................     9
    Responses to additional questions from:
        Senator Barrasso.........................................    13
    Response to an additional question from Senator Carper.......    15
    Responses to additional questions from:
        Senator Whitehouse.......................................    16
Steinwand, Terry, Director, North Dakota Game and Fish Department    19
    Prepared statement...........................................    22
    Responses to additional questions from:
        Senator Barrasso.........................................    33
    Response to an additional question from Senator Carper.......    33
    Response to an additional question from Senator Whitehouse...    34
    Responses to additional questions from:
        Senator Wicker...........................................    34
Rogerson, Joe, Program Manager for Species Conservation and 
  Research, Delaware Division of Fish and Wildlife...............    36
    Prepared statement...........................................    40
    Response to an additional question from Senator Barrasso.....    48
    Responses to additional questions from:
        Senator Duckworth........................................    49
        Senator Whitehouse.......................................    51

 
 THE INVASIVE SPECIES THREAT: PROTECTING WILDLIFE, PUBLIC HEALTH, AND 
                             INFRASTRUCTURE

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Cramer, Braun, 
Sullivan, Boozman, Ernst, Cardin, Gillibrand, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we will consider the scourge of invasive species, the 
species that threaten our communities and how we can most 
effectively combat them. This hearing will also continue the 
Committee's work to support successful efforts to conserve 
wildlife, build infrastructure, and protect the public health. 
Invasive species have significant impacts on all three of these 
areas.
    Few issues are more bipartisan than the need to protect our 
communities from invasive species. Invasives are non-native 
species whose introduction causes harm to the local economy and 
the environment, and to human health. More than 5,000 invasive 
species exist in the United States. They cause more than $120 
billion of economic damage each year.
    According to the U.S. Fish and Wildlife Service, ``every 
region of the United States has invasive species problems.'' 
``Invasive species can be found,'' they say, ``from Alaska to 
Louisiana and from Maine to Texas.'' They go on, ``They can be 
found in our forests, fields, and wetlands, and in our streams, 
rivers, and bays, and even off of our coastlines.''
    Each year, hundreds of millions of dollars are spent in an 
attempt to eradicate invasive species, and each year new 
threats for invasives immerge.
    Like the rest of the Country, Wyoming finds itself coping 
with an extensive and expensive invasive species problem. 
Cheatgrass consumes vast amounts of water, degrades valuable 
soil and habitat, fuels catastrophic wildfires, and displaces 
vegetation, turning vibrant prairie communities into 
monocultures, leaving only cheatgrass as far as the eye can 
see.
    Russian olive trees take over riparian areas across the 
State, absorbing massive amounts of water that would otherwise 
be used for wildlife and native species. The West Nile virus is 
transmitted by mosquitoes that infect birds and mammals, 
including humans. It is an invasive species according to the 
U.S. Department of Agriculture.
    West Nile virus is the leading cause of mosquito-borne 
illness in humans in the United States. In 2018, 2,544 cases of 
West Nile virus were recorded and reported in 49 States, 
including Wyoming. West Nile virus affects horses, dogs, and 
other animals, and causes millions of dollars in losses 
associated with the treatment of the infection and even death.
    The environmental costs of invasive species are real as 
well. According to the National Wildlife Federation, 42 percent 
of threatened or endangered species are at risk because of 
invasives. West Nile virus threatens species like the sage 
grouse, which Wyoming and many other States are working hard to 
protect. The problem of invasive species is rampant and 
requires action.
    Last Congress, this Committee examined innovative solutions 
to control invasive species, with the goal of improving 
wildlife conservation efforts. We heard about cutting-edge 
technologies to more effectively control invasive species, from 
smart fish passage systems to keep invasive species out, to DNA 
technologies that detect invasives earlier.
    Together with Ranking Member Carper and several other 
Committee members, I introduced the Wildlife Innovation and 
Longevity Driver Act, called the WILD Act, to support efforts 
to combat invasive species in several ways, including by 
reauthorizing the Partners for Fish and Wildlife Program and by 
requiring Federal agencies to coordinate when planning and 
implementing invasive species-related activities. The WILD Act 
also incentivizes the development of cutting-edge technologies 
by establishing cash prizes for technological innovation in 
invasive species management.
    In 2017, the WILD Act passed the Senate by unanimous 
consent. Last month, we reintroduced the WILD Act and last week 
we again reported this important bill unanimously from the 
Committee. Yesterday this bill passed the Senate as part of the 
Omnibus Public Lands package. I look forward to seeing it 
passing in the House and being signed into law.
    I look forward to hearing from our three witnesses today on 
what tools will be most helpful in protecting our wildlife, our 
infrastructure, and public health from the scourge of invasive 
species.
    I would now like to turn to my friend and Ranking Member, 
Senator Carper, for his opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Before I introduce Joe Rogerson, my staff actually was kind 
enough to Google the Troggs, who came up with a great record 
called Wild Thing.
    Senator Barrasso. Wild Thing. You owe me $10. I told you he 
was going to talk about Wild Thing today.
    [Laughter.]
    Senator Carper. And the Troggs' original name was----
    Senator Barrasso. I get $100 if you sing.
    Senator Carper [continuing]. the Beatles.
    [Laughter.]
    Senator Carper. Wouldn't that be great? The Beatles. They 
changed their name to the Troggs. They would never get anywhere 
with that name.
    Senator Barrasso. We could sing together.
    Senator Carper. We could?
    Senator Barrasso. Let's not.
    [Laughter.]
    Senator Carper. Never let the Nation's business get in the 
way of some fun.
    Joe, thanks for joining us. Terry and Slade, thank you all 
for coming today.
    I want to thank our staffs for the work that they have done 
in preparing for this hearing.
    Mr. Chairman, since our last hearing on invasive species in 
March 2017, our Committee has worked across the aisle--most 
people think we don't work across the aisle, but we actually do 
it pretty well in this Committee--to try to address these 
challenges that these species create for our health, create for 
our infrastructure, create for native wildlife.
    The WILD Act, which we reported out from our Committee last 
week, directs Federal agencies to manage proactively for 
invasive species and it creates a new Genius Prize, a Genius 
Prize to spur innovation in managing invasive species.
    I am proud of our Committee's ongoing work on the WILD Act, 
and a lot of other things, too, and I urge its swift passage 
and enactment into law by this Congress.
    Our 2018 Water Resources Development Act, which we enacted, 
the authorship of the Chairman and myself, and input from a lot 
of people on this panel and other places, too, affectionately 
known as WRDA, also included provisions to target invasive 
species in specific States, including the Asian carp in the 
Great Lakes.
    Unfortunately, invasive species are still prevailing and 
wreaking havoc across our Nation. Delaware hosts both aquatic 
and terrestrial invasive species, such as catfish, crayfish, 
and insects. Specifically, the Delaware Department of 
Agriculture has recently reported Spotted lantern flies 
sightings. These destructive insects could harm agriculture 
industries throughout our region.
    The emerald ash borer also made its way to Delaware in 
2016, and this kind of jewel beetle--that is what it is called, 
a jewel beetle--is not a welcomed jewel by those of us in the 
Diamond State. This beetle's path of destruction is broad, 
already causing the rapid decline of five species of North 
American ash trees across 35 States.
    Ash wood is a valuable commodity for many reasons. It is 
used in baseball bats, among other items. This week, as 
pitchers and catchers of major league baseball teams across 
America are reporting for spring training, given that many of 
the bats those teams will be swinging come from ash trees in 
the United States, if we want to strike a blow for America's 
national pastime, we could start by making sure that this pesky 
beetle is called out on strikes and tossed out of the game for 
good.
    Ash trees are also important in their ecosystems. Those 
trees filter air, mitigate stormwater runoff, sequester carbon, 
and they provide habitat for native moth, butterfly, and insect 
species.
    Sadly, ash trees are not the only species that have 
declined significantly due to invasive species. According to 
the National Wildlife Federation, invasive species have 
contributed to the decline of over 40 percent of threatened and 
endangered species, over 40 percent.
    We have to do more to quell the growing threat of invasive 
species, and that includes addressing root causes. To that end, 
I would be remiss if I did not mention the role of climate 
change in the spread of invasive species. The Fourth National 
Climate Assessment, issued by 13 Federal agencies just last 
November, recognizes that climate change is causing conditions 
that may favor invasive species over native species.
    As warming temperatures cause native species' ranges to 
shift, experts believe invasive species may come to occupy many 
new areas. For example, the Asian tiger mosquito, which carries 
West Nile and Zika viruses, may well expand into the Northeast 
in coming years. Climate change is an existential threat to our 
Nation and to our World, and the spread of invasive species is 
just one symptom of that problem and challenge.
    In addition to considering root causes, there are creative 
ways we can adapt to deal with invasive species. A few months 
ago, I visited an Agricultural Research Service unit on the 
campus of the University of Delaware in Newark, Delaware, where 
I think Joe was a student and I was a graduate. We were both 
graduate students there at different times. He was there before 
me.
    Researchers at this facility study beneficial insects and 
are exploring options for releasing these natural predators 
where invasive species are present. The research takes many 
years to ensure that releasing new species will not have 
unintended consequences. When this method is successful, we can 
alleviate the need to eradicate invasive species in less 
environmentally friendly ways.
    In conclusion, let me just say that each State is 
different. We face different challenges and hold different 
ideas regarding how to address invasive species, so I want to 
thank each of our witnesses for sharing your perspectives with 
us today. With your help and the help of other stakeholders and 
colleagues, I hope we can identify some new opportunities for 
bipartisan collaboration to combat invasive species.
    We appreciate your leadership and interest, and I 
appreciate very much your leadership and interest here, Mr. 
Chairman.
    Senator Carper. I want to, if I could, at this time, just 
give a brief introduction of Joe Rogerson. Can I do that?
    Senator Barrasso. Please do.
    Senator Carper. Thank you.
    This is the PG version.
    Mr. Rogerson. Oh, boy.
    Senator Carper. Joe was born in Maryland. What is it, 
Boonsboro?
    Mr. Rogerson. Yes, sir.
    Senator Carper. In the western end of the State?
    Mr. Rogerson. Yes.
    Senator Carper. He couldn't get into any schools in 
Maryland; he got wait-listed to all those schools, so he had to 
go to West Virginia University, where the president was Gordon 
Gee, who is the president again.
    Gordon Gee was honored this week. He has been president of 
West Virginia University twice, Ohio State twice, Brown, 
Vanderbilt, and Colorado, and I think two nights ago, in 
Washington, DC, he was honored as the outstanding college 
president in America. He is so good at raising money, he would 
walk into a room full of alum and they would pull out their 
wallets. For that and other reasons he has received this honor, 
and you have been honored to go to a school where he was your 
president and he is again.
    But I am pleased to introduce Joseph to work for the 
Delaware Division of Fish and Wildlife since 2005. Came to 
Delaware to get his master's degree and found his master, a 
woman named Alison, who is the mother of their two children. 
They are almost five and 7 years old. The 7-year-old goes to a 
charter school that I actually, as Governor, helped to create, 
so it is a small world in Delaware.
    Joseph oversees the implementation of Delaware's Wildlife 
Action Plan. He is also active in the Northeast Association of 
Wildlife Agencies in the Atlantic Coast joint venture. He 
received his bachelor's at WVU, master's degree at the 
University of Delaware in wildlife ecology, and we are just 
grateful that you are all here, and thank you, Joseph, for 
joining us.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    We also have joining us Terry Steinwand, who is the 
Director of the North Dakota Game and Fish Department.
    Senator Cramer, I invite you to introduce him, if you would 
like.
    Senator Cramer. Thank you, Mr. Chairman.
    Thank you, Terry, for being with us today.
    It is a great honor to be able to introduce Terry. I have 
known Terry a long time. We worked together in State 
government, prior to my coming here.
    Terry is the truest of North Dakotans. He grew up on a 
grain farm near Garrison, North Dakota, in McLean County. 
Garrison is important for lots of reasons, not the least of 
which is it is the namesake of the Garrison Dam, which creates 
what we call Lake Sakakawea; people around here call her 
Sacagawea. Born in the outdoors and a fan of the outdoors, and 
now a protector of the outdoors.
    Terry started his work at the Department of Game and Fish 
in North Dakota well over 30 years ago as a fisheries biologist 
and then eventually becoming the head of fisheries. Then, in 
2006, our colleague, former Governor John Hoeven, appointed him 
to be the director of the agency. Since then, two more 
Governors thought it was such a good idea, they have appointed 
him. I don't know if he is going to retire or die there, but we 
are glad you are there, Terry.
    Terry brings an important perspective as an outdoorsman, a 
biologist, well educated at the University of North Dakota in 
fish and wildlife management and biology, with a master's 
degree in biology. He also brings an important perspective of 
how important collaboration and cooperation is among agencies 
and outdoorsmen and stakeholder groups.
    We are grateful you are here, Terry. As you can probably 
tell from the earlier banter, we are a friendlier legislature 
than the one you have to go back in Bismarck tomorrow, shall we 
say. With that, I am grateful you are here. Thank you. We 
welcome you.
    Senator Barrasso. Thank you very much, Senator Cramer.
    To the witnesses, your full written testimony will be made 
part of the official hearing record today, but I ask you to try 
to keep your statements to 5 minutes so that we have time for 
questions. We all do look forward to the testimony.
    I would like, at this time, to introduce the witness from 
Wyoming who is here, Mr. Slade Franklin. He has served as the 
Weed and Pest State Coordinator at the Wyoming Department of 
Agriculture since 2004. In this role, Mr. Franklin has 
developed statewide invasive species management programs that 
have been integral to protecting the health of Wyoming's 
ecosystem.
    He organizes, chairs, and facilitates groups concerned 
about invasive species, like the Wyoming Annual Grasses Task 
Force and the Wyoming Interagency Weed and Pest Working Group. 
He has chaired the Western Weed Coordinating Committee and the 
State Weed Coordinators Alliance.
    In 2015, I was pleased that the Secretary of Interior 
agreed to my recommendation to appoint Mr. Franklin to serve as 
a member of the Invasive Species Advisory Committee. As a 
member of that Committee, Mr. Franklin provides information and 
advice on invasive species-related issues to the National 
Invasive Species Council, which coordinates efforts to address 
invasive species issues at the national level.
    Mr. Franklin has represented Wyoming well as a member of 
the Invasive Species Advisory Committee. I know we will all 
benefit from hearing about his extensive experience in fighting 
invasive species in Wyoming and the challenges that they pose 
to our State's wildlife, our infrastructure, and our public 
health.
    Mr. Franklin, it is a privilege to welcome you here today 
as a witness before the Environment and Public Works Committee. 
Thank you for traveling to Washington, as well, when the 
legislature is in session at home. We are delighted to have you 
here with us today.
    Mr. Franklin, please proceed with your testimony.

 STATEMENT OF SLADE FRANKLIN, WEED AND PEST STATE COORDINATOR, 
               WYOMING DEPARTMENT OF AGRICULTURE

    Mr. Franklin. Chairman Barrasso, thank you for the welcome. 
Ranking Member Carper, as well as other members of the 
Committee, thank you for the opportunity to speak with you 
today. As mentioned, my name is Slade Franklin. I serve as the 
Weed and Pest Coordinator at the Wyoming Department of Ag. For 
the past 15 years I have been working on the issue of invasive 
species in the State of Wyoming, the western region, and the 
United States.
    Through my experiences, I have gained insight to the 
difficult task of managing invasive species. The extent of the 
problem is not just limited by industry, by location, or by 
economic impacts. Urban communities deal with the issue as much 
as the rural communities. Species like zebra and quagga mussels 
can impact water supplies for livestock and municipalities 
both. The impacts to the Country from invasive species are 
economically staggering.
    Additionally, we are becoming more aware of the impact to 
our native wildlife. In the State of Wyoming and the Great 
Basin, invasive grasses such as cheatgrass and medusahead rye 
are altering critical habitat for sage grouse and mule deer by 
transitioning sage brush communities from a 50-year fire cycle 
to a 3-year fire cycle. The Bureau of Land Management reported 
that in the last 20 years 74 percent of Department of Interior 
acres burned were on range lands, and 80 percent of those 12 
million acres were on cheatgrass-invaded range lands.
    In 2016, the Invasive Species Advisory Committee published 
a paper outlining the problem invasive species presents for the 
Country's infrastructure. The Committee reviewed four main 
categories: power systems, water systems, transportation 
systems, and housing. The Committee identified existing 
potential threats to each of the categories due to invasive 
species that range from mussels to insects, to animals such as 
burrowing iguanas and nutria. ISAC concluded that Federal 
agencies currently lack the authority necessary to effectively 
prevent, eradicate, and control invasive species that impact 
the human-built environment.
    Invasive species not only impact infrastructure, they 
utilize it. In 1896, U.S. Department of Agricultural botanist 
Lester Dewey was requested by Congress to research how western 
States could eradicate the invasive weed Russian thistle. 
Russian thistle had been introduced in South Dakota through 
contaminated flax seed, and it quickly established itself 
throughout the West and Midwest. Some of you may recognize 
Russian thistle as the tumbling tumbleweed costarring in every 
western movie ever made.
    In his report back to Congress, Dr. Dewey noted, ``Next to 
the railroad yards and the waste land in cities and villages, 
the roadsides are the most important avenues for the 
introduction of new weeds and for the propagation of old ones. 
They should, therefore, be watched with special care.''
    Roads and rail lines are still one of the primary avenues 
by which invasive species move. We have watched invasive weeds 
such as yellow star thistle, an invasive plant that has 
infested over 14 million acres in California, creep its way 
east to Wyoming by following the interstates and highways.
    Introduced terrestrial pathogens and diseases, such as West 
Nile virus, can have a direct impact on human health. In 
Wyoming, the first confirmed case of West Nile virus was 
reported in 2002. Since then, Wyoming, Montana, North Dakota, 
and South Dakota have some of the highest average annual 
incidents of West Nile virus or neuroinvasive disease reported 
to the CDC. The neuroinvasive disease can lead to encephalitis 
and meningitis, and, in extreme cases, death. Between 1999 and 
2017, over 2,000 deaths had been reported to the CDC due to the 
West Nile neuroinvasive disease, with an additional 137 deaths 
reported in 2018.
    As daunting as the task of managing invasive species can 
be, successful management is realistic and achievable through 
partnerships involving Federal, State, and county agencies, 
nongovernment organizations, land grant universities, and, 
critically important, the private landowner. In the same 1896 
USDA bulletin, Dr. Dewey states, ``In nearly all cases, the 
landowner can do the work at much less cost than it can be done 
by public authorities.'' Federal and State government partners 
contribute greatly through their jobs and are deeply 
appreciated, but agricultural producers are passionate and 
financially motivated. Their livelihoods depend on healthy 
ecosystems.
    The U.S. Fish and Wildlife Service's Partners for Wildlife 
and the U.S. Forest Service's State and Private Forestry 
Programs are essential tools in rewarding landowners in their 
habitat and weed management efforts that protect critical 
wildlife.
    We need to continue moving the dialog on invasive species 
forward as to what role we can play in improving success by 
identifying what resources are already in place and what 
additional resources are needed. Just less than 50 percent of 
Wyoming is managed by Federal agencies, and some of the most 
concerning infestations of terrestrial weeds occur on these 
public lands. When cross-jurisdictional programs are developed, 
local experts should be empowered by the respective Federal 
agencies to make critical time-sensitive decisions.
    Capacity can be improved through policy and legislative 
changes, but it also needs to be improved through funding. 
Invasive species programs have often relied on grants and 
short-term funding sources, which are helpful for immediate or 
initial treatments, but do little to assist with long-term 
program stability. Additionally, we need to improve funding for 
research and development in programs such as USDA-ARS and land 
grant universities such as the University of Wyoming.
    New funding is not the only solution. In 2017, the National 
Interagency Fire Center reported firefighting costs were $2.9 
billion to fight fires across 10 million acres. This works out 
to a cost of $290 per acre. The landscape scale herbicide 
treatment of cheatgrass costs, at most, $60 an acre. Yet, 
agencies are only treating a fraction of the known infested 
acres. If the medical adage ``prevention is better than the 
cure'' is true, it may be time Federal agencies review how 
current firefighting funds are utilized and change the 
paradigm.
    Chairman Barrasso, thank you again for the invitation to 
speak with your Committee. I would like to close by 
congratulating you on receiving the 2018 Wyoming Weed and Pest 
Council's Guy Haggard Award. We appreciate all the work you 
have done in helping bring national attention to this issue.
    I look forward to your questions.
    [The prepared statement of Mr. Franklin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you for your testimony.
    Mr. Steinwand.

 STATEMENT OF TERRY STEINWAND, DIRECTOR, NORTH DAKOTA GAME AND 
                        FISH DEPARTMENT

    Mr. Steinwand. Thank you, Mr. Chairman, Ranking Member 
Carper, and members of the Committee. I didn't write anything 
down; I like to adlib stuff. I will add right upfront that I am 
more of an expert on the aquatic side of invasives. We do deal 
with the terrestrial side also, but I will let the colleagues 
on either side of me deal with it.
    I wish Ranking Member Carper were here, because he 
mentioned the emerald ash borer as being a devastating insect, 
and it absolutely is. But I just read an article last week, and 
I don't know if this is verifiable, if there is research, but 
out of Minnesota there was an article that stated once it hits 
20 below, it starts affecting the larvae of emerald ash borer, 
which are right under the bark of the tree. Once it hits 30 
below, 90 percent of the larvae are killed.
    Well, being from North Dakota, we don't have emerald ash 
borer, and I would like to say that it is probably because we 
have 40 to 50 below temperatures up in North Dakota. That is 
not necessarily true; we have been relatively lucky.
    Also, Mr. Chairman, you also mentioned about the monotypic 
stands, and I think you were probably referring to cheatgrass. 
That is also true in the aquatic world. Eurasian watermilfoil, 
curly leaf pond weed, we do have those in North Dakota, and 
they form these monotypic stands and it hurts the aquatic side 
of it, too. My colleague, Mr. Franklin here, mentioned about 
the wildfires with cheatgrass. We don't have wildfires in the 
aquatic ecosystem, but what happens is they take over, they 
become a monotypic stand; it reduces the diversity of the 
vegetation and therefore reduces the forage species, insects 
for other sports species and other potentially endangered 
species.
    Senator Cramer mentioned I am a farm boy. I am not a boy 
anymore, I am a lot older than that; I qualify by Social 
Security, but I love what I do, so I don't plan on taking 
Social Security for a while. But being a farm boy analogy, my 
dad never planted the same crop on the same land year after 
year, and it was for disease issues. I think we can say the 
same thing. You have that monotypic stand, you lose that 
diversity.
    On any invasive species, if it can be found early, that is 
when your chances of eradicating it or controlling it are 
absolutely the best, or certainly enhanced in most cases. This 
really takes aggressive and sometimes constant monitoring of 
the landscape, again, whether it is the aquatic or the 
terrestrial ecosystem. Of course, that requires people and 
funding.
    I just want to give you some examples of what do in North 
Dakota. We monitor high-value, high-risk areas. Again, Senator 
Cramer mentioned the Lake Sakakawea and Garrison Reservoir. We 
monitor that frequently with our colleagues from the Corps of 
Engineers, local sportsmen's groups, so on and so forth.
    We also contract with local college students in the eastern 
part of the State to have students go out and check boaters in 
some of these high-risk areas. It is not mandatory check in 
North Dakota, but check them, tell them how to check for 
vegetation and drain their live wells and their bilge water; 
and, at the same time, educate and inform them, because that 
has been our attitude. Education and information is maybe the 
best tool we have.
    I will also give you some examples of what we don't catch 
early. Everybody has heard of the common carp. It has been in 
the United States since the 1800's, and my German ancestors 
brought it over because they were homesick for what they had 
back in Europe. We have problems with that in many places. In 
waterfall areas it can cause problems by rooting up the 
vegetation in their spawning activities. It does the same for 
the fishery side; they tend to take up that biomass, so it is 
almost impossible to control. We have controlled it with 
rotenone applications to kill it, but it is not specific to 
carp, so it kills the rest of the fish species.
    One we did catch in time is the Eurasian watermilfoil. It 
was first found in a little sidewater of the Cheyenne River, 
which is in east central North Dakota, and we were a little 
concerned, but what we did is we have done surveys on where the 
highest risk areas they come from, and it undoubtedly came from 
Minnesota at that point in time. We had found a small lake in 
southeastern North Dakota that was a real hotspot for Minnesota 
anglers to go to. Within 2 years, we had Eurasian watermilfoil 
there. What we did, we worked with the local water board, we 
drew down what was called Dead Colt Creek, trying to freeze it 
out because the literature said that will work. Then, the 
following spring we applied it with an herbicide. We did that 
for 2 years; it was eradicated and we have not found it there 
ever since.
    Another issue we think we have caught in time is silver 
carp, a form of Asian carp. In 2011, there was a tremendous 
flood all across North Dakota. It actually moved up the James 
River from South Dakota into North Dakota and hit a dam, 
Jamestown Reservoir or Jamestown Dam, and we have been 
monitoring it very closely. We have not found any reproduction. 
We put some regulations in place that does not allow the public 
to take small fish out of there for bait to use in other 
waters, and, so far, we have not found it in any further 
places. There are big adults, but they are just getting larger.
    Another one we think we have caught in time, and it is not 
just us, we worked with the North Dakota Department of 
Agriculture, is palmer amaranth. The first occurrence in North 
Dakota was found this last August. And if you don't know 
anything about palmer amaranth, it is a species of pigweed that 
grows very aggressively, about 2 to 3 inches a day, can have a 
stem about that big, and produce up to a million seeds in the 
seed head. We coordinated with the Department of Agriculture 
right around the start of hunting season in North Dakota, and 
we figured if we could have thousands of boots on the ground in 
the form of hunters looking for those areas, then they could 
pull them in time, figure out exactly what it was; and, to our 
knowledge, there have been no further occurrences of that in 
North Dakota.
    Zebra mussel, we do have it in North Dakota. That is one 
that we anticipated it coming because it was coming to a 
tributary of the Red River, which forms the border between 
North Dakota and Minnesota. We had found larvae for about 4 
years, just not very many of them, the veligers, but in 2016, 
all of a sudden, we found adult zebra mussels. Not much you can 
do without very, very extensive means to take care of that, but 
we do know it is there, and we put some special regulations in 
place to ensure that water from the Red River does not move 
anyplace westward further into North Dakota.
    I have gone over my time here, but I guess my advice is the 
sooner we can catch something like that, the better off you 
are. And if you can contain it to a general area, the better 
off you are. Once it gets out of control, spreads and spreads 
and spreads, it becomes more expensive and there is more 
damage.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Steinwand follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Appreciate your testimony. Thank you, Mr. 
Steinwand.
    Mr. Rogerson.

    STATEMENT OF JOE ROGERSON, PROGRAM MANAGER FOR SPECIES 
   CONSERVATION AND RESEARCH, DELAWARE DIVISION OF FISH AND 
                            WILDLIFE

    Mr. Rogerson. Good morning. I would like to thank each of 
you for the opportunity to visit and meet with you to discuss a 
very real and significant problem that affects our entire 
Country and not just my home State of Delaware: invasive 
species. My name is Joe Rogerson, and I oversee Delaware's 
Species Conservation and Research Program within the Delaware 
Department of Natural Resources and Environmental Controls 
Division of Fish and Wildlife.
    My comments today will focus primarily on the impacts of 
invasive species on native wildlife and their habitats, but I 
would remiss if I didn't point out that the impacts of invasive 
species often equal, and in some instances have more 
significant impacts to, public health and safety, our economy, 
commercial industries, agricultural producers, hunters, 
anglers, wildlife watchers, and many other groups. I have seen 
reports estimating the total impact of invasive species across 
our Country to exceed more than $100 billion annually, so this 
is a very real and significant problem, as invasive species 
affect many facets of our lives.
    Invasive species are a leading driver of biodiversity loss 
and, in many instances, are one of the primary factors that 
result in a listing of many of the Country's threatened and 
endangered species. State wildlife action plans serve as the 
blueprints for conserving our Nation's fish and wildlife and 
preventing species from becoming endangered.
    In 2005, each State, territory, and the District of 
Columbia submitted their plan for approval to the U.S. Fish and 
Wildlife Service as a condition for receiving funding through 
the State and Tribal Wildlife Grant Program. The plans were 
recently updated with the latest science and information to 
guide conservation of over 12,000 species in greatest 
conservation need across the Country. Along with identifying 
the species in greatest conservation need, each State 
identified threats and associated actions that could be 
implemented to reverse each threat.
    Recently, the content of each State's wildlife action plan 
in the northeast region was summarized. Of the 2,918 species of 
greatest conservation need within the region, pollution and 
development were the most frequently cited threats, with 
invasive species closely following as one of several additional 
regional threats. States currently don't have sufficient 
resources to tackle all of the threats outlined within their 
wildlife action plans, so we are unable to fully address 
threats facing fish and wildlife populations from invasive 
species.
    Following an Executive Order signed by then President 
Clinton in 1999 to establish the National Invasive Species 
Council, the nongovernmental Delaware Invasive Species Council 
was also formed that same year. The mission of the 120-member 
DISC is to protect Delaware's ecosystems by preventing the 
introduction and reducing the impact of invasive species.
    DISC works closely with natural resource managers, 
biologists, and stakeholders to reduce invasive plants and 
animals, and to promote native habitats. In 2017, I was part of 
Delaware's Ecological Task Force, which identified many threats 
that contribute to the decline and, in some cases, extirpation 
of native fish, wildlife, and plants in Delaware. Invasive 
species are one of the leading threats identified by the Task 
Force, in addition to pollution and habitat loss.
    Based on the recommendations of the Task Force, Delaware's 
General Assembly established the Delaware Native Species 
Commission in 2018 to bolster State efforts to reverse the 
trend of native plant and animal decline within our State. Of 
the more than 6,500 invasive species known to occur in the 
U.S., I would like to list a few invasive species that are or 
may become significant challenges in my home State of Delaware.
    Control of invasive species in Delaware and the surrounding 
region has been initiated in the response to the invasion of 
Phragmites and nutria within our wetlands, northern snakehead 
fish and hydrilla plants within our waters, and Asian tiger 
mosquitoes that are a threat to transmit Zika and West Nile 
virus in our communities. More recently, efforts have been or 
soon will be taken in Delaware to monitor for lionfish, Spotted 
lanternflies, and the Asian longhorned tick, as well as bats 
that have been identified with a non-native fungus that causes 
the debilitating White-nose Syndrome which has decimated 
populations of some species of bats across the Country, 
particularly in the northeast.
    Along with a written copy of my oral statement today, I 
have included an appendix within the written statement that 
includes more in-depth information on the species I just 
described, but I would like to talk about some of the work 
being done back in Delaware and a very good example of an 
invasive species control project that is occurring currently on 
the Delmarva Peninsula.
    The control of Phragmites is a major priority in Delaware 
to reduce the impact of this highly invasive plant that 
outcompetes and replaces our native wetland plants, severely 
degrading these wetland habitats. An aggressive control program 
has been initiated in Delaware since 1976 and, to date, more 
than $6 million has been spent by my agency to control this 
species. While far from being eradicated, we have been 
successful at reducing the amount of Phragmites in Delaware, 
which has helped to restore the biodiversity and functions of 
our wetlands. Control of other invasive plant and animal 
species has required countless hours of agency staff time and 
funding, and the help of volunteers to combat invasive species 
across Delaware, including within our State-owned wildlife 
areas, forests, and parks.
    From where we sit today, we don't have to travel far to see 
an example of a highly successful program to combat an 
extremely detrimental introduced invasive species. Nutria, a 
semi-aquatic rodent native to South America, were introduced to 
the Chesapeake Bay region in the mid-1900's. Prolific breeding 
habits and a voracious and destructive feeding behavior caused 
extensive destruction of wetlands which, if left unchecked, 
would have compromised the Chesapeake Bay. A federally 
supported Chesapeake Bay Nutria Eradication Project initiated 
in the early 2000's helped turn the tide of this invasive and 
destructive rodent, effectively eliminating all known nutria 
populations from over a quarter million acres of wetlands on 
the Delmarva Peninsula, with current efforts focused on removal 
of residual animals.
    A study completed by the Maryland Department of Natural 
Resources reported that, without decisive action, more than 
35,000 acres of Chesapeake Bay wetlands could be destroyed by 
nutria in 50 years. The predicted impact of nutria destruction 
to Maryland's economy was dire, with losses exceeding $35 
million annually. Maryland watermen would have been hit hardest 
from the loss of tidal wetland fish and shellfish nursery areas 
that help replenish important and productive Chesapeake Bay 
fisheries.
    The study illustrated the economic costs to the citizens of 
Maryland and the entire Chesapeake Bay in terms of dollars lost 
to commercial fisheries, recreational fisheries, hunting, 
wildlife viewing, and related industries. Damage to the 
ecological services provided by healthy wetlands, such as storm 
protection, flood control, and water purification would have 
made the overall destruction even greater than the economic 
findings indicated.
    As of 2016, all of the known nutria populations have been 
removed form over a quarter million acres on the Delmarva 
Peninsula. The project is currently implementing efforts to 
verify eradication and remove any residual animals. The 
Chesapeake Bay Nutria Eradication Project is a classic example 
of how an invasive species can be controlled and, in this case, 
potentially eradicated with adequate funding and staff 
resources.
    Hopefully, all of us recognize that invasive species are a 
significant problem facing our Country. There are steps that 
individual States can do and have done to prevent invasive 
species from becoming established or spreading into new areas, 
but many of these species cause problems across State lines and 
over large geographic areas, which is where the Federal 
Government could further help tackle this problem.
    While not referring to invasive species, Benjamin 
Franklin's quote ``an ounce of prevention is worth a pound of 
cure'' couldn't ring more true in terms of how we handle 
invasive species, since it is more costly to deal with invasive 
species once they become established than it is to prevent them 
from entering in the first place.
    A couple examples of proactive species prevention include 
increased invasive species surveillance on the goods and 
imports arriving in our Country to prevent their introduction 
to the wild and some States restricting the possession of 
certain invasive fish and wildlife species to minimize the 
chance of their introduction into the wild. Furthermore, some 
States have restricted and planting of certain species of 
invasive ornamental trees and shrubs that have the propensity 
to rapidly spread in the new areas and outcompete native 
plants.
    Another example of some prevention includes regulations in 
some jurisdictions that establish weed-free forage programs for 
agricultural producers to minimize the spread of invasive and 
noxious weeds.
    There are many other similar programs to prevent or 
minimize the chance of new invasive species from entering the 
Country and preventing those that are already here from 
spreading into new areas. Unfortunately, the invasive species 
genie is out of the bottle. In addition to needing an ounce of 
prevention to prevent further introductions, we also need a 
pound of cure to control these species that are already here. 
Dedicated funding and personnel are needed to control and, in 
some cases, eradicate invasive species.
    I again would like to thank each of you for giving me the 
opportunity to meet with you today to talk about the important 
issue of invasive species, and I look forward to additional 
opportunities and actions to combat them.
    With that, I would gladly take any questions you may have. 
Thank you.
    [The prepared statement of Mr. Rogerson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thank you.
    I appreciate the testimony from all of you.
    Since you quoted Ben Franklin, we will head to Mr. Franklin 
for some thoughts.
    Mr. Franklin. No relation.
    Senator Carper. Mr. Chairman, can I just say something?
    Senator Barrasso. Please.
    Senator Carper. I apologize to our witnesses. We all serve 
on a bunch of different committees, and the Homeland Security 
Committee has just been meeting and marking up a bunch of bills 
and nominated, and they needed somebody for a quorum, so I 
apologize for slipping out, but I read your testimony and just 
look forward to asking some questions.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Mr. Franklin, like most of the west, Wyoming has serious 
problems with cheatgrass. You mentioned it can cause 
catastrophic fires. It has been aggressive in crowding out, 
sometimes eliminating, native grasses that are important to so 
many species, including the sage grouse. I think you said in 
your testimony it has taken the fire cycle from 50 years down 
to 3. It is the first to move in after a fire or other 
disturbance, and it is incredibly hard and difficult to get rid 
of. Conservative estimates indicate that it has taken over 100 
million acres across the west.
    Can you talk about the environmental ripple effects of when 
a species like this takes over an area?
    Mr. Franklin. The unique thing about cheatgrass and how it 
has been able to really take over those rangelands, is it is a 
winter annual, so what people don't understand sometimes in 
that, in the winter in Wyoming, November and December, that is 
when it is greening up. Then it becomes dry and dies out in 
June, when a lot of the other native species are just starting 
to green up, so it is in that process, that timeline variation 
with our perennial plants that causes the fire cycle.
    What we find with cheatgrass, and I think you mentioned in 
your question, is it likes fire and it creates fire, so it 
takes out all those native species that sage grouse 
specifically deals with and creates this monoculture, and then 
that fire cycle is a continuing process; and with that 
continuous process we see the acres increase simply because 
that seed production in that fire is making it go farther out.
    We have seen some mass effects on our sage grouse habitat, 
which is critical to Wyoming and to the Country, and also on 
our mule deer habitat, so what we really try to do is get out 
there after the fires as much as anything and do treatments so 
we can help give those perennials the opportunity to come back 
that those species are depending on.
    Senator Barrasso. I would also like to ask about specific 
economic impacts in terms of ranching in Wyoming. Canada 
thistle affects almost every county in our State, it degrades 
the quality of forage for livestock by crowding out native 
vegetation. Ranching is so very important to us at home. Can 
you talk about the economic impacts that invasive species are 
causing to rangelands in Wyoming?
    Mr. Franklin. One of the species the Director from North 
Dakota and I were talking about before we started this is leafy 
spurge. It is a species that does impact North Dakota and does 
impact Wyoming; impacts a lot of those Rocky Mountain States. 
Back, I believe, in about 1999 there was a leafy spurge task 
force that looked into the economic impacts of just that single 
weed, and what they came up with is, annually, the States of 
South Dakota, North Dakota, Wyoming, and Montana lose $144 
million in production and for control costs just from that 
species alone.
    The unique thing about leafy spurge, or one of the more 
concerning things, is it is poisonous to livestock, so there 
are incidents where people have been put out of business in the 
ag industry simply because of this weed being present on their 
lands.
    Senator Barrasso. I wanted to turn to West Nile virus. You 
mentioned it was discovered in 1937 and first detected in the 
United States in 1999. It is found today in every county in 
Wyoming. Per capita, Wyoming is among the highest number of 
cases of West Nile virus in the United States.
    I was just visiting with Senator Cramer about a friend that 
I served in the Wyoming State Senate with and you were working 
for the Department at the time, State Senator Bob Peck. Bob 
Peck, multi-award-winning American politician, journalist, 
editor, publisher, and Wyoming State Senator; published 
newspapers around the State. The Riverton Rangers and The 
Family talks about his death. The cause of death on March 6, 
2007, while I was still in the State Senate: West Nile virus. 
So, one of our State senators felled by West Nile virus.
    Can you talk a bit about the invasive species, how they 
become not just an environmental or an economic threat, but 
also a public health threat?
    Mr. Franklin. Wyoming is a small State, and I think if you 
talk to anyone in our State, they know someone who has been 
impacted by West Nile virus. I know a couple people myself who 
had the virus back, I think, somewhere around maybe 2005, 2006, 
and they still have neurological effects from that virus, so it 
is not something that just goes away overnight, and certainly 
there are deaths that lead to it.
    We are a little more unique in Wyoming because we don't 
have Aedes aegypti mosquitoes, which carry the Zika virus, we 
just deal with the Culex tarsalis mosquito. The program we run 
in our State, the Culex tarsalis is a later summer species, so 
we are able to, through monitoring on the local level, 
determine when Culex tarsalis is mostly prevalent and when the 
potential for West Nile virus is there, so we really try to 
target that species based on when it is going to be most 
active.
    But it is always a difficult battle because public 
perception on mosquito control programs is, there is variation. 
When you see an airplane, for instance, flying over a 
municipality, some people just don't like that. In Wyoming, we 
do a lot of that with larva sighting, though, so it is a matter 
of, I think, with the West Nile virus program and mosquito 
programs, a lot of education still needs to be done in the 
public.
    Senator Barrasso. Thank you, Mr. Franklin.
    Senator Carper.
    Senator Carper. Again, thanks so much for joining us and 
for your testimony. A lot of times, here in Washington, the 
press tends to focus on our differences. You would think we 
never agree on anything and never get anything done, but 
actually I hope this week that we will prove them that is not 
always the case.
    Let me just ask a question with that in mind. In listening 
to your testimoneys and talking to each other a little bit 
earlier today, what are some areas that you see agreement, 
common ground on these issues?
    Slade Franklin, relative, descendant of Ben?
    Mr. Franklin. I think you heard in all three of our 
testimoneys the importance of early detection, rapid response, 
and the importance of getting on some of these new species as 
quickly as possible; the economics of saving the money by 
getting it early, compared to doing what we are doing now with 
cheatgrass.
    At least in Wyoming, one thing that we are looking at very 
closely is medusahead rye, which is a big problem in Nevada. A 
lot of people consider it worse than cheatgrass. We found it in 
our State and we are trying to an early detection and rapid 
response program because we know the economics of doing that 
now makes more sense than waiting until it gets to the point 
with cheatgrass.
    Senator Carper. Thanks. That is a good point.
    Terry?
    Mr. Steinwand. I don't think I can add anything to what Mr. 
Franklin said.
    Senator Carper. Oh, come on, I bet you can. We have never 
had a witness say that.
    [Laughter.]
    Mr. Steinwand. I am never at a loss for words, I guarantee 
you.
    Senator Carper. Again, areas of common ground.
    Mr. Steinwand. Oh, absolutely. Absolutely.
    Senator Carper. Just go ahead and mention one or two.
    Mr. Steinwand. West Nile virus. I guess I bring that up 
because it is a human health issue, but it is also a wildlife 
issue. Our sage grouse population was doing very good until 
2008, when there was a West Nile outbreak in our sage grouse 
population and it just crashed. We are actually trying to 
reestablish that population.
    Senator Carper. Are you really? Was it wiped out?
    Mr. Steinwand. Pardon me?
    Senator Carper. Was it largely wiped out?
    Mr. Steinwand. No, just drastically reduced. We went to 350 
males to less than 100 within a year. Actually, through the 
graces of Wyoming Game and Fish Department right now, we are 
actually translocating some hens and some chicks and some males 
into North Dakota; have for 2 years and are going to for three 
more years, so there is more to it than that.
    I think it is collaboration amongst everyone, different 
agencies. Wildlife and invasive species don't know political 
parties, they don't know sociopolitical boundaries, so I think 
collaboration is really the key.
    Senator Carper. All right. Thank you, sir.
    Joseph?
    Mr. Rogerson. I was going to reiterate those two points.
    Senator Carper. Go ahead, reiterate them.
    Mr. Rogerson. As I concluded with, early detection is key, 
and a rapid response both from an effectiveness and efficiency 
from a funding standpoint are critical; and I think improved 
communication not just within individual States, but between 
States. Invasive species can come at us from any different 
direction in a whole multitude of manners; they can swim 
upstream, downstream, come from the air, they can come from a 
car, they can come from the bottom of someone's shoes as they 
walk in from the last time they wore them in another State.
    So oftentimes these species can make great jumps 
geographically, and if it is a species that, in Delaware, we 
are not familiar with dealing with, having those improved 
communication lines that if that was a Nebraska kind of thing, 
for us to know how we should respond and that kind of thing I 
think is important, and I think we could all agree that we 
could get this pretty much anyway.
    Senator Carper. Thank you.
    I think each of you, in your testimony, mentioned funding 
at some point. We are, as you know, wrestling with funding 
legislation to fund the Federal Government for the balance of 
the fiscal year. I hope we will make some progress on that 
today and tomorrow.
    Do your States have the financial resources that they need 
to fully address invasive species? Do you believe the Federal 
Government has a role to play in better meeting your funding 
needs?
    Joe, I will just go to you first.
    Mr. Rogerson. I would say, no, we do not have adequate 
funding needs to address all of our invasive species. It seems 
to be we receive more of them rather than getting rid of them 
faster than we are able to bring new ones in, so constant 
challenges even from just educational capacity and what we 
should be doing and looking for, so, no, we are certainly 
challenged from a funding standpoint.
    I think the Federal Government does have a role to help 
with that. Many of these species cross State borders. Delaware, 
as you know, is a very small State, and some of these species 
could come from the north down the Delaware River or any way 
from a port from overseas or anything, so I do think the 
Federal Government does have a role to help States, 
particularly those that cross State borders and have large 
geographic problems.
    Senator Carper. Thank you.
    Terry?
    Mr. Steinwand. Thank you. Like Mr. Rogerson said, there 
never seems to be adequate funding. We are actually asking for 
more funding through the State legislature, actually through 
fishing license fees in North Dakota as we speak.
    In terms of does the Federal Government have a role, I 
would say yes, but it is primarily a State role also. The 
Federal nexus that I can think of right now would probably be 
primarily Corps of Engineers. Again, Senator Cramer mentioned 
Lake Sakakawea. A typical reservoir doesn't stay at a stable 
level, it goes up and down, and as it goes down you have 
noxious weeds such as Canada thistle primarily showing up on 
shorelines, and there never seems to be enough funding for the 
Corps of Engineers to handle that because it may provide some 
wildlife habitat, but it certainly provides more of a problem 
for surrounding landowners.
    Senator Carper. OK, thanks.
    Mr. Franklin, I may come back to you later on the same 
question.
    Thanks so much.
    Senator Barrasso. Senator Cramer.
    Senator Cramer. Thank you.
    Thank all three of you for your testimony and being here. 
This is really quite fascinating. I think what I will do is I 
will just maybe expand a little bit on what you are talking 
about right now on Senator Carper's questions.
    I will come to you first, Terry. With regard to the Federal 
Government's role, if not monetary, and clearly there is some 
in terms of just cleaning up our own house, although I will 
resist the temptation to talk about the Corps having too much 
land and perhaps they should give you some more of it to do the 
right thing with, but that aside, you talked a lot about 
collaboration early on, particularly in the context of the 
amaranth and the collaboration with the Agriculture Department 
obviously using the outdoorsmen as the boots on the ground, as 
you called them, during the hunting season and how important 
that was.
    From a Federal perspective, obviously, you have Federal 
partners that do the very same things you do, or similar, are 
there things we could either do from a policy standpoint, in 
terms of guidance or rules or just behavior that the Federal 
Government or the Federal agencies you work with could be doing 
differently to be more cooperative; and, as policymakers, 
especially things that we should be changing to help them in 
that?
    Mr. Steinwand. Thank you, Senator Cramer, that is an 
excellent segue or excellent question. We do routinely 
collaborate quite extensively with State partners, Federal 
partners, private partners, one I will say is the U.S. Fish and 
Wildlife Service, for more disease issues, more than anything, 
at the national fish hatcheries, but also we coordinate with 
the Ecological Services Branch in terms of terrestrial 
vegetation as much as anything.
    I don't think, at least in North Dakota, we need any policy 
changes because the collaboration is there.
    In terms of the Corps of Engineers, again, on aquatic 
species, particularly zebra mussel monitoring, they help us 
tremendously. We just don't have enough people to get around 
and monitor all those areas, and the local Corps of Engineers 
office in Riverdale, North Dakota helps out. Whenever they pull 
out a dock or a fishing pier, which you can't leave in North 
Dakota because of the ice issues, they are checking those; they 
are going around to municipalities, areas they deal with. The 
same with the Bureau of Reclamation, which I know this 
Committee doesn't deal with, but the Bureau of Reclamation 
equally helps us out.
    So, in terms of Federal agencies, I wouldn't say more 
funding helps, and I wouldn't even say policy, because the 
people that we work with in North Dakota are very, very good to 
work with.

    Senator Cramer. Thanks for that.
    Mr. Franklin, anything different to add?
    Mr. Franklin. Collaboration is really important in Wyoming 
when you talk about that many acres of Federal land. We have 
BLM, Forest Service, Department of Defense, Bureau of Indian 
Affairs, so the collaboration is important. What we find is we 
have good people on the ground, but sometimes they don't have 
the resources actually to act upon that.
    There are things with NEPA that could be improved. The 
ability to do categorical exclusions for new insipient 
populations and treatments would be helpful. We also see, for 
instance, between the Federal agencies on their approval 
process or risk assessments for new herbicides or new 
management tools, some can do that fairly quickly, some take 
several years and millions of dollars to do the risk 
assessment.
    These are some of the issues I know we are working on with 
Federal agencies and trying to mitigate those, but there are 
some places with that policy that we really could use some help 
to give those land managers for those agencies better ability 
to react.
    Senator Cramer. And is that more profound in Wyoming 
because I think you stated in your testimony that roughly 50 
percent is Federal ownership?
    I know, Terry, in North Dakota it is like less than 4 
percent, I think. That is probably one of the significant 
differences.
    Mr. Franklin. Right. I would think so.
    Senator Cramer. Sir, do you have anything to add to that?
    Mr. Rogerson. I do not. I would say that, in Delaware, we 
are very much a private land driven State; we have not that 
much Federal land compared to my counterparts to the right. We 
do have a good relationship with our Federal and State 
partners. Our Delaware Invasive Species Council is a very 
active group.
    I would say some areas where we are lacking is education 
and understanding from the general public, particularly of the 
invasive plants. It is nice to see a nice grove of Bradford 
pears that was an early successional field, and to think that 
is a native species in the spring, when it is just a 
monoculture of beautiful white flowers, when, in reality, you 
have outcompeted those species, outcompeted the native plants 
and shrubs that should be there.
    The Spotted lanternfly is an example of a new species that 
came here, so efforts to improve detections of these critters 
that are coming in from reports and other places I think is 
still necessary. That has the potential to tremendously impact 
our orchards and peach production and grapes around the States.
    So, I think there are areas that we can improve, but we are 
doing the best we can with the resources that we have.
    Senator Cramer. Excellent.
    Thank you all.
    Senator Barrasso. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Rogerson, it is always nice to have a Marylander on the 
panel, so thank you for being here. I know that Senator Carper 
is claiming you as a person from Delaware, but we will let him 
do that for today.
    I also appreciate the fact that you brought the nutria 
issue and the fact that the investments we made in eradicating 
the nutria, there are still some signs, but basically under 
control, has returned greater dividends for our economy. 
Nutrias are interesting animals; they were originally brought 
into our region because of their fur used for coats, until they 
recognized they were just big rats and women didn't want to 
wear rat coats. So, the nutrias were then released into the 
wild, and they multiplied and destroyed a lot of wetlands. 
Blackwater National Wildlife Refuge is an example of an area 
that was very badly damaged as a result of the nutria 
population.
    We acted here in Congress, we passed the Nutria Eradication 
Act. It was also well balanced geographically, because they had 
the problems in some of our southern States, Louisiana, so we 
were able to get the right political mix to get that passed and 
it is a success story, so I want to take what we learned from 
the nutria, that if we invest in dealing with invasive species 
control, it cannot only help our environment, but help our 
economy as well.
    We are having challenges in the Chesapeake Bay because of 
the salinity of water changing with the amount of rainfall that 
we have had. We find that there are catfish invasive species 
that are thriving much stronger than they would otherwise be 
able to do because we have warmer seasons. The invasive plants 
are much stronger that we need to deal with.
    The question I have for you is what type of public 
investment should we be making in the Chesapeake Bay region in 
order to be able to duplicate the success that we had on nutria 
for the other invasive species. I understand there are 
somewhere around 200 invasive species in the Chesapeake Bay 
region. Clearly, we have challenges in the region on invasive 
species.
    Mr. Rogerson. Thank you. And if it earns me any brownie 
points, not only am I from Maryland, I worked on the Nutria 
Eradication Program before I came to Delaware Fish and 
Wildlife, so I was there for about a year.
    I think one of the reasons the nutria project was so 
successful was the original folks involved didn't set out to 
just try and control nutria, which would then have this long-
term, we are going to lower populations down, but now we are 
going to have to fund and address this for decades and decades 
in the future, because if we stop there is going to be more of 
them.
    So, they hit it aggressively and said we are going to get 
rid of nutria from the Delmarva Peninsula. It is going to cost 
a little more money upfront initially to hit it hard with that 
full-frontal force, but, in the end, it is going to pay 
dividends because they will be gone and we don't have to have 
long-term monitoring teams and stuff out there in the future.
    It has been a couple years since they found an animal, 
which is amazing. Many folks didn't think it was going to be 
possible. But there are still areas, leaving no stone unturned 
because of how prolific breeders they are.
    So, I think with the number of species you talked about in 
terms of in the Chesapeake Bay would be prioritizing which ones 
do we think we can get a handle on now, which ones are most 
detrimental to our resources. You know, nutria impacted the 
environment not only from our wetland integrity to handle sea 
level rise and storm surges and things like that, but also our 
economy. If you like crab cake sandwiches, you didn't like 
nutria, because they were going to impact the nursery habitats 
for our blue crabs and stuff like that.
    So, I would say reviewing what species you have and then 
prioritizing where you should focus those efforts, because you 
are probably not going to be able to hit all 200 of them with 
the same force.
    Senator Cardin. Is there a mechanism in the Chesapeake Bay 
program for doing that with invasive species? I am not aware of 
a ranking as to where we should put our priorities, nor am I 
aware of a real effort being made collectively within the 
Chesapeake Bay region on invasive species. I know we do have 
programs to eradicate invasive species, but I am not aware of 
such a coordinated effort.
    Mr. Rogerson. I am familiar with our Delaware Invasive 
Species Council, from my State. I would presumably venture to 
guess that there is one in Maryland. It is an unfunded, at 
least regulated by the State standpoint in Delaware, so we have 
identified our most important things. Our challenge in Delaware 
comes from acquiring all the resources we need to put boots on 
the ground. What we try and do is educate folks to the problem 
so that then, perhaps, they can implement the actions and find 
the resources that they need to be able to handle it.
    Senator Cardin. I would just point out invasive species do 
not know geographic borders.
    Mr. Rogerson. Absolutely. Yes.
    Senator Cardin. Thank you. We will look at whether we can 
provide some guidance within the watershed on this area.
    Thank you for your testimony.
    Mr. Rogerson. Thank you.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Braun.
    Senator Braun. A subject dear to my heart, back in the late 
1980's I started investing in timber ground, and invasive 
species was not even mentioned up until probably 15 years ago, 
and then I have stuff like bush honeysuckle start showing up, 
stealth grass, of course, the emerald ash borer for midwestern 
timber, and I think that is 8 percent of all the trees in 
Indiana, pretty well taken them all out.
    I am interested because this seems to be a problem that is 
so massive. Does it make sense and can you bring in natural 
enemies and counterpunches that come from the places where this 
stuff originates, or is that opening up a Pandora's box of 
further complications? Because, to me, unless you are kind of 
have an involvement in it, like I do, most people don't know 
the difference between a bush honeysuckle and a native plant, 
or stealth grass and grasses that grow here natively.
    What about that idea? Then I want to get one other 
question. Anybody that feels comfortable, weigh in on it.
    Mr. Franklin. We are big supporters of biocontrol in the 
State of Wyoming; we think it is a great opportunity to help 
balance, maybe, in some cases some of these invasive species 
with the native vegetation. The Wyoming Weed and Pest Council 
actually puts money into research for new biocontrol agents in 
our State, so we are putting county and State funds into that 
kind of research because we feel it is a great opportunity.
    We were talking, just before this testimony, about leaf 
beetles on leafy spurge, because the herbicides available for 
leafy spurge are minimal and have very little effect in some 
cases, so the leaf beetle actually can go in and do a great job 
of balancing the leafy spurge within those ecosystems.
    So, I would say, from Wyoming's perspective, that is one 
place we really could support and expand, is the biocontrol 
agents.
    Senator Braun. And is that finding a native biocontrol? Is 
all this stuff unchecked, where it comes from? Like cheatgrass, 
does that dominate the landscape from wherever it originates?
    Mr. Franklin. It does not. So, what we do is our research, 
what Wyoming funds for research is actually in Switzerland, and 
they go out and actually look in the native landscapes where 
these plants are and look for native bugs that impact them or 
eat them. And then it is a pretty lengthy process in terms of 
researching whether it will work or not, and also to get those 
biocontrol agents approved. So, it is not simply a matter of 
going over, finding it, and bringing it back, you know, on a 
boat; there is an approval process. Speaking of the genie 
getting out of the bottle, there is a pretty lengthy approval 
process to help monitor that.
    Mr Steinwand. Mr. Franklin did a tremendous job, but I 
would add to that that biocontrol is a preferred method over 
herbicides, but you have to be careful of the unintended 
consequences. And, again, Mr. Franklin kind of alluded to the 
fact that there needs to be research. Using the flea beetle and 
leafy spurge as an example, there was a tremendous amount of 
research done on that, because what happens when they control 
or eradicate the intended plant? What are they going to go to 
next, an unintended plant and get something you really don't 
expect? So there has to be some background and some research 
before we go that route totally.
    Mr. Rogerson. I agree that biocontrols do have their 
merits. I know the University of Delaware Ag Department does 
quite a bit of research on biocontrols. And to your point 
earlier about these species, where they come from, are they 
pervasive and out of control over there, if you think about the 
natural world that is here, and the plants and animals and 
insects that are all connected together, every plant has a 
group of insects that it supports; it also has some insects 
that feed on it, and everything works together.
    When you take these species that aren't native to those 
areas and drop them in, they lack, oftentimes, those controls 
that keep them in check here, so then they are able to dominate 
our landscapes that are here, and that is why, when you see 
these animals moved around these great distances, you see them 
kind of potentially explode, given the right species and the 
right condition.
    Senator Braun. Thank you.
    Have you found that these species naturally climax or start 
to feather out, or do they just keep exploding into the local 
environment? And have we had many instances of where something 
here actually that is native starts to knock it back, or would 
that be the exception rather than the rule? For anybody.
    Mr. Franklin. I think you are specifically asking about 
invasive species, right?
    Senator Braun. Yes.
    Mr. Franklin. So, there are invasive species that come in 
that have value to some degree. I think some of the non-native 
grasses that do have a grazing value to them, so maybe we are 
less likely to focus on them as we are the ones that have no 
value. So, there are a lot of invasive species out there and 
there are some that are lower priorities and should be 
prioritized lower than the ones that have that economic or 
agricultural impact.
    Mr. Steinwand. I would add that the hallmark of an invasive 
species is typically tremendous, tremendous growth of that 
population if left unchecked to begin with, and then stabilizes 
to some level below that somewhere in the future. I would 
hopefully not contradict what you are saying, but, to some 
extent, Kentucky bluegrass, which is a great ornamental grass 
for lawns across the Nation, has created a little bit of a 
problem in North Dakota when it invades our native prairies. We 
have found that if we get heavy grazing pressure when it is 
still less than 30 percent of that landscape, we can control 
it, but, if not, once it gets above 30 percent, it tends to 
take over that native prairie, thus reducing pollinator 
diversity, so on and so forth, and very little wildlife value.
    Mr. Rogerson. And I will mention that not every non-native 
species that comes here is invasive and causes problems. For 
example, where nutria were introduced in Blackwater and 
Cambridge area, during that same time period sika deer were 
brought over from Thailand I believe is where they are from, 
and certainly they do impact the agricultural producers and 
farmers over there from a crop damage standpoint. They did not 
have the same ecological impacts that nutria did.
    So, it depends on the life history traits of that species 
that is brought over here and things like that that is going to 
determine whether it becomes an invasive species and becomes a 
problem for us.
    Senator Braun. Thank you.
    Senator Barrasso. Thank you, Senator Braun.
    I have one last question to Mr. Steinwand. We talked about 
invasive mussels and things that are happening underwater. The 
quagga and the zebra mussels have had enormous destructive 
powers, from clogging pipes and reservoirs to destroying the 
motors of private recreational boats. We have here a poster 
board of zebra mussels on a motor.
    Can you share some advice that you might have to inform 
Wyoming in terms of our future efforts to prevent the spread of 
quagga and zebra mussels based on your experience in dealing 
with this in North Dakota?
    Mr. Steinwand. Thank you, Mr. Chairman. I believe I 
mentioned it in my written testimony and my oral testimony. As 
good as Wyoming Game and Fish Department is, I am guessing they 
already do this, but I don't know, again, given limited 
resources, first of all, try to find out where the pathways, 
what are the most likely high-risk pathways for that to come 
into Wyoming and then concentrate your forces on them. If you 
can prevent it from coming in, again, I think we have all said 
that that is the best route to go.
    Senator Barrasso. Thank you.
    Senator Carper. I have one question for Joe and then a 
question for our panel to close it out.
    I mentioned in my opening statement, I talked a little bit 
about climate change. I think most people, when they think 
about climate change, in Delaware we think about sea level 
rise. We are a small State. We are sinking and the oceans 
around us, as Joe knows, are rising. Not too far from where I 
live, my neighbor here, Ben Cardin, to my left, from Maryland, 
one of the places he represents is Ellicott City. We saw a lot 
of rain in Delaware last year, probably twice as much as we 
normally get, and damaged our crops quite a bit. A lot of the 
farmers ended up just plowing their crops under because we had 
so much rain. They just kept planting and replanting, and 
finally kind of gave up and turned to crop insurance. So, we 
think about that.
    We think about wildfires, all these wildfires out west, 
where one of my sons lives, wildfires bigger than Delaware. But 
we don't often think of invasive species and what effect, if 
any, climate change has on invasive species, and I would just 
ask Mr. Rogerson whether or not climate change is a 
consideration in the Department of Natural Resources and 
Environmental Control's management of invasive species. And, if 
so, would you share some thoughts with us on how Delaware might 
be adapting and some examples of possible implications in our 
State and maybe even implications for other States?
    Mr. Rogerson. Yes. At DNREC, we take climate change into a 
whole host of considerations that we are working on, not just 
invasive species, due to many of the reasons you just pointed 
out. Just a quick example, as I said earlier, invasive species 
can come at us from any different direction, not just 
necessarily as we think of things getting warmer and stuff. As 
an example, lionfish, lionfish are a tremendous problem in 
offshore reefs and places particularly more in the southern 
part of the Country. Currently, our water temperatures in the 
wintertime seem to be too cold for that species to persist 
here, but they have been found as far north as Rhode Island and 
north of us, so just proactive monitoring efforts, knowing that 
things are going to move and increased coordination with our 
southern counterparts.
    Asian tiger mosquito, as pointed out, having the potential 
to carry Zika and West Nile. I can attest that I have had 
invasions over the years of tiger mosquitos in my neighborhood, 
and they are voracious predators and feeders out in the yard, 
and you can't play outside with the kids, so we do have a very 
modern and----
    Senator Carper. Do repellants work with those?
    Mr. Rogerson. Say that again?
    Senator Carper. Repellants, the kind of repellants we use 
for most mosquitos?
    Mr. Rogerson. They seem to, at least in my yard, when they 
are out and around, I am inside kind of thing, or certainly 
wearing long-sleeved barriers kind of thing to get through. I 
mean, they are much larger than our normal mosquitos, and their 
feeding habits and such, they are not a fun one to have around; 
not that any of them are.
    Furthermore, with climate change, sea level rise, the host 
of factors that come with it, those all put stresses on our 
native plant and animal communities; and you throw in invasive 
species on top of them, which typically the ones that we see 
aggressively get out of hand or be strong competitors are the 
ones that dominate those sites and areas that have been 
disturbed where our native plants don't do as well, so I think 
that can lend itself to being a further problem in the future.
    Senator Carper. All right, thank you.
    Last question, if I could, on regional collaboration. In 
Delaware, we are big on the four Cs, communicate, collaborate, 
cooperate, and civility, in order to get us to consensus. That 
is what we try to do.
    I was encouraged, with that in mind, by some of the 
regional collaboration that you all have mentioned here today 
to us, including the Chesapeake Bay Nutria Eradication Project 
and the Western Governors Association Invasive Mussel Forum.
    How do you think Congress and the Federal Government could 
better support these regional efforts and others? Go ahead.
    Mr. Steinwand. If I might, you did mention the Western 
Governors Association. Of course, that is North Dakota and to 
the west. I think supporting the policies that that group has 
come up with, which is truly a bipartisan effort, supporting 
those policies and working together. We serve, not myself, but 
staff serves on a minimum of three regional invasives council 
to more share information such as we are doing here, to 
innovate to the extent possible. I don't mean this as a 
denigrating remark, but if we can get by with not having to 
spend any Federal money on this and just cooperation and 
policy, to me, that would be the greatest win.
    Senator Carper. OK. Thanks.
    Others, please, Franklin and Joe? We will close it up. 
Slade?
    Mr. Franklin. I would reiterate the Western Governors 
Association just did a bunch of workshops on invasive species, 
and they are working on some ideas on policies, and I think 
there is a place maybe for Congress to look at what those ideas 
coming out of that are.
    Certainly, ISAC, the committee I am on, works on some 
policy ideas that would be well work Congress looking at. ISAC 
has been around for, I think, 10, 15 years, and there are some 
great whitepapers discussing not just the funding issue, but a 
lot of the policy issues that may be worthwhile looking at.
    Senator Carper. OK, thank you.
    Joseph, you get the last word.
    Mr. Rogerson. I agree, I think any kind of improved 
coordination between the States, particularly Delaware, where 
we are, as I said before, being small. The Spotted lanternfly 
is yet another example of nobody expected it to come here and 
it showed up, so I think the Government can help us with 
keeping species out through better inventory of goods and 
things coming into the Country, as well as the fact that these 
species, many of them do cross State borders and State lines 
and stuff, being facilitators, perhaps, between the States to 
work together.
    Senator Carper. All right.
    Mr. Chairman, one of the issues that is dividing my staff 
sitting behind me is the Spotted lanternfly. The S in Spotted 
lanternfly is, of course, capitalized, but the question is how 
about that L in lanternfly. Some say capitalize; others say 
not. What do you say?
    Mr. Rogerson. I would have to look at my testimony to see 
what my Department of Agriculture folks said to me.
    [Laughter.]
    Senator Carper. Well, to be continued. Those will be 
questions for the record.
    Thank you all.
    Senator Barrasso. Well, thank you, Senator Carper.
    Thank you to the witnesses.
    As you had mentioned, Senator Carper, there are so many 
different conflicting committees going on today that some of 
the members weren't able to get here, so they may submit 
written questions, so I would ask that you please respond to 
those. The hearing record is going to be open for 2 weeks, but 
I think all of us want to just thank all of you for your time 
and your testimony today. It has been a tremendous hearing.
    Senator Carper. Mr. Chairman, could I ask for a unanimous 
consent request to ask unanimous consent to enter into the 
record written testimony and letters from stakeholders, as well 
as other supplemental materials?
    Senator Barrasso. Without objection.
    Senator Carper. Thank you.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. The hearing is adjourned.
    [Whereupon, at 11:25 a.m. the committee was adjourned.]

  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
